UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1275
Patrick Roger Brigaudin
Movant - Appellant
v.

United States of America
Respondent - Appellee
Appeal from U.S. District Court for the Western District of Missouri - Springfield
(6:19-cv-03 342-MDH)
JUDGMENT
Before KELLY, ERICKSON, and KOBES, Circuit Judges.
This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
June 12, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-1275

Page: 1

Date Filed: 06/12/2020 Entry ID: 4923484

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
SOUTHERN DIVISION
PATRICK R. BRIGAUDIN,
Movant,
vs.

UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)

Civil No. 6:19-cv-03342-MDH
Crim. No. 6:16-cr-03039-MDH-l

ORDER
Movant pleaded guilty to conspiring to distribute methamphetamine and launder money.
Movant was sentenced to 360 months’ imprisonment. Now before this Court is Movant’s pro se
motion to vacate, set aside, or correct his sentence under 28 U.S.C. § 2255. Doc. 1. Because the
Court finds that the motion, files, and record conclusively show that Movant is not entitled to
relief, Movant’s motion is DENIED. Furthermore, a Certificate of Appealability is DENIED and
this case is DISMISSED.
I.

Background
On September 28, 2016, a grand jury returned a 37-count second superseding indictment

charging Movant with conspiracy to distribute 500 grams or more of a mixture of substance
containing a detectable amount of methamphetamine, in violation of 21 U.S.C. §§ 841(a)(1),
(b)(1)(A) and 846 (Counts One and Four); with conspiracy to commit money laundering, in
violation of 18 U.S.C. § 1956(a)(l)(A)(i) and (h) (Count Two); distributing methamphetamine, in
violation of 21 U.S.C. § 841(a)(1) and (b)(1)(C) (Counts Six, Ten, and Eleven); distributing 50
grams or more of methamphetamine, in violation of 21 U.S.C. § 841(a)(1) and (b)(1)(A) (Counts
Twenty-Two and Thirty-Six); and money laundering, in violation of 18 U.S.C. §§ 2 and
1956(a)(1)(B) (Count Twenty-Seven). Crim. Doc. 107.1 The indictment also included a forfeiture
allegation under 21 U.S.C. § 853. Id.
Movant pleaded guilty, pursuant to a written plea agreement, to Counts One and Two of
the second superseding indictment and admitted the forfeiture allegation. Crim. Doc 327, 328.
1 Crim. Doc.” refers to the docket number entries in Movant’s criminal case, Case No 6:16-cr-03039MDH-1. “Doc.” refers to the docket number entries in Movant’s civil case, Case No. 6:19-cv-03342-MDH.

Case 6:19-cv-03342-MDH Document 8 Filed 01/15/20 Page 1 of 8

Movant waived his constitutional right to a jury trial, and waived the right to appeal or collaterally
attack his conviction or sentence. Crim. Doc. 328, p. 12-14. Movant acknowledged that his entry
into the plea agreement was freely and voluntarily given, not the product of any threats or promises,
and that he was satisfied with his defense counsel’s performance. Id. at 17. Movant executed the
plea agreement on August 1, 2017. Id. at 18; Crim. Doc. 554, p. 3.
At the change-of-plea hearing, Movant agreed that he was pleading guilty to Counts One
and Two of the second superseding indictment and was admitting the forfeiture allegation. Crim.
Doc. 554, p. 8, 13. Movant confirmed that he was competent to plead guilty and understood the
terms of the plea agreement. Id. at 4-6. Movant stated that no coercion or promises outside of the
promises in the plea agreement had induced the guilty plea and he believed the plea agreement
was in his best interest. Id. 6-7. Movant acknowledged that because of his prior felony drug
offense, upon pleading guilty to Count One that he faced no less than 20 years to life imprisonment
and that under Count Two, he faced no more than 20 years’ imprisonment. Id. at 9. Movant stated
he understood that the district court would determine his actual sentence within the authorized
statutory range, and he could be sentenced above or below his Sentencing Guidelines range. Id. at
9-10. Movant also affirmed understanding that he would be unable to withdraw his guilty plea if
he was disappointed with the sentence he received. Id. at 11. Movant confirmed waiving his right
to a jury trial. Id. at 11-12. Movant confirmed that he had read and understood the appeal-waiver
provision of his plea agreement. Id. at 13-14.
On October 27,2017, a presentence investigation report (PSR) was issued. Crim. Doc. 407.
The PSR contained a recitation of the offense conduct. Id. at 4-42. The PSR calculated a base
offense level of 38, under U.S.S.G. § 2D1.1, based on the drug quantity. Id. at 48. The PSR
recommended several enhancements and a reduction to the offense level: a two-level enhancement
for maintaining a premises for the purpose of manufacturing or distributing a controlled substance,
pursuant to § 2D1.1(b) (12); a two-level enhancement for being directly involved with importing a
controlled substance and pattern of criminal conduct as a livelihood, pursuant to § 2Dl.l(b)(15)(C)
and (E); a four-level enhancement for being an organizer or leader, pursuant to § 3B 1.1(a); and a
three-level reduction under § 3El.l(a) and (b) for acceptance of responsibility, resulting in a total
offense level of 43. Id. at 48-58. The PSR calculated a criminal history category of II, yielding an
advisory Sentencing Guidelines range of life imprisonment. Id. at 97.

2
Case 6:19-cv-03342-MDH Document 8 Filed 01/15/20 Page 2 of 8

Movant’s counsel made many objections to the PSR, including challenging all three
offense level enhancements. Id. at 21. Movant’s counsel also filed a sentencing memorandum that
challenged all three offense level enhancements. Crim. Doc. 503.
Movant appeared for sentencing on March 21,2018. Crim. Doc. 511. This Court sentenced
Movant to a below-Guidelines sentence of 360 months on Count One and 240 months on Count
Two, to run concurrently, followed by concurrent tenns of 10 years’ supervised release on Count
One, and three years’ supervised release on Count Two. Crim. Doc. 516.
Movant filed a timely notice of appeal on March 28, 2018. Crim. Doc. 519. His counsel
moved to withdraw and submitted an Anders brief. United States v. Brigaudin, 744 Fed.Appx. 986
(8th Cir. 2018). Movant filed a pro se supplemental brief, arguing his guilty plea was involuntary,
a speedy trial violation, that the district court erred by imposing a four-level leadership
enhancement, and that the appeal waiver did not preclude appellate review. Id. The Eighth Circuit
affirmed Movant’s conviction and sentence in an unpublished per curiam opinion. Id. Crim. Doc.
615.
Movant has now filed a motion under § 2255 seeking to vacate his sentence. Crim. Doc.
627; Doc. 1.
II.

Legal Standard
Title 28 U.S.C. § 2255 provides that an individual in federal custody may file a motion to

vacate, set aside, or correct his or her sentence. A motion under this statute “is not a substitute
for a direct appeal and is not the proper way to complain about simple trial errors.” Anderson v.
United States, 25 F.3d 704, 706 (8th Cir. 1994) (internal citations omitted). Instead, § 2255
provides a statutory avenue through which to address constitutional or jurisdictional errors
and errors of law that “constitute[ ] a fundamental defect which inherently results in a complete
miscarriage of justice.” Sun Bear v. United States, 644 F.3d 700, 704 (8th Cir. 2011) (quoting
Hill v. United States, 368 U.S. 424, 428 (1962)).
“A § 2255 motion can be dismissed without a hearing if (1) the petitioner’s allegations,
accepted as true, would not entitle the petitioner to relief, or (2) the allegations cannot be accepted
as true because they are contradicted by the record, inherently incredible, or conclusions rather
than statements of fact. ” Sanders v. United States, 341 F.3d 720, 722 (8th Cir. 2003) (citation and
quotation marks omitted). Additionally, a petition that consists only of “conclusory allegations
unsupported by specifics [or] contentions that, in the face of the record, are wholly incredible,” is
3
Case 6:19-cv-03342-MDH Document 8 Filed 01/15/20 Page 3 of 8

insufficient to overcome the barrier to an evidentiary hearing on a § 2255 motion. Blackledge v.
Allison, 431 U.S. 63, 74 (1977).
III.

Analysis
Movant brings two grounds for relief: (1) ineffective assistance of counsel, and (2)

prosecutorial misconduct. Doc. 1. In the first ground, Movant argues that ineffective assistance of
counsel resulted in an involuntary guilty plea, failure to challenge the Sentencing Guidelines
enhancements, and a failure to file an appeal. Id. In the second ground, Movant contends “direct
threats by the prosecutor” precipitated his guilty plea. Id. Respondent argues that Movant’s claims
are conclusory, contrary to the record, and lack merit. Doc. 5.
A. Ground One: Ineffective Assistance of Counsel
A claim of ineffective assistance of counsel may be sufficient to attack a sentence under
§ 2255; however, the “movant faces a heavy burden.” United States v. Apfel, 97 F.3d 1074, 1076
(8th Cir. 1996); see DeRoo v. United States, 223 F.3d 919, 925 (8th Cir. 2000). To establish that
counsel was ineffective, a movant must satisfy the Strickland test, that is Movant must “show that
his ‘[] counsel’s performance was so deficient as to fail below an objective standard of reasonable
competence, and that the deficient performance prejudiced his defense.’” Nave v. Delo, 62 F.3d
1024, 1035 (8th Cir. 1995) (quoting Lawrence v. Armontrout, 961 F.2d 113, 115 (8th Cir. 1992));
see also Strickland v. Washington, 466 U.S. 668, 687 (1984). Both prongs of the Strickland test
must be established to be entitled to § 2255 relief; failure to establish either prong is fatal to a claim
of ineffective assistance of counsel. See Strickland, 466 U.S. 697; DeRoo, 223 F.3d at 925 (“[i]f
the defendant cannot prove prejudice, we need not address whether counsel’s performance was
deficient”); Pryor v. Norris, 103 F.3d 710, 713 (8th Cir. 1997).
Under the first prong of deficient performance, Movant must overcome a “strong
presumption that counsel’s conduct falls within the wide range of professionally reasonable
assistance and sound trial strategy.” Garrett v. United States, 78 F.3d 1296, 1301 (8th Cir. 1996)
(citation omitted). Second, to establish prejudice, Movant must demonstrate a “reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding would have
been different.” Strickland, 466 U.S. at 694; see Palmer v. Clarke, 408 F.3d 423, 444-45 (8th Cir.
2005) (citation omitted). In the context of a guilty plea, Strickland's, prejudice prong requires a
showing of a “reasonable probability that but for counsel’s errors, he would not have pleaded guilty
and would have insisted on going to trial,” see Hill v. Lockhart, 474 U.S. 52, 59 (1985), while in
4
Case 6:19-cv-03342-MDH Document 8 Filed 01/15/20 Page 4 of 8

a sentencing context, a § 2255 movant must show a “reasonable probability that his sentence would
have been different but for the deficient performance.” Jeffries v. United States, 721 F.3d 1008,
1014 (8th Cir. 2013). However, “[i]t is not enough for the defendant to show that the errors had
some conceivable effect on the outcome of the proceeding.” Strickland, 466 U.S. at 693. Rather, a
reasonable probability requires a “probability sufficient to undermine confidence in the outcome.”
Jeffries, 721 F.3d at 1014 (citing Strickland, 466 U.S. at 694); see King v. United States, 595 F.3d
844, 852-53 (8th Cir. 2010) (finding “little doubt” of prejudice where defendant “likely would
have received a much shorter sentence” had counsel challenged the sentencing court’s application
of § 4B1.1).
Both prongs of this test must be established in order to be entitled to § 2255 relief; failure
to establish either one of the prongs is fatal to a claim of ineffective assistance of counsel. See
Strickland, 466 U.S. 697; DeRoo v. United States, 223 F.3d 919, 925 (8th Cir. 2000) (“[i]f the
defendant cannot prove prejudice, we need not address whether counsel’s performance was
deficient”).
In Ground One, Movant contends specifically that counsel was ineffective for (1) leading
him to believe he would receive a lesser sentence upon pleading guilty and thereby rendering the
plea involuntary, (2) purportedly failing to challenge certain Sentencing Guidelines enhancements
this Court applied, and (3) failing to file an appeal. Doc. 1.
1. Movant’s Guilty Plea Was Not Involuntary
In count one, Movant argues that defense counsel led him to believe a guilty plea would
result in a 240-month sentence. Doc. 1. Movant argues that had he known he would receive a 360month sentence, he would have opted for trial. Id. Moreover, Movant argues that due to his poor
education, the “only thing he ... firmly believefd]” was that counsel led him to believe he would
be sentenced at the low end of his 240-292-month Sentencing Guidelines range.
However, the record clearly indicates Movant’s knowing and intelligent compliance with
this Court during the change of plea hearing, and statements made in court under oath “constitute
a formidable barrier in any subsequent collateral proceedings. Solemn declarations in open court
carry a strong presumption of verity.” Blackledge v. Allison, 431 U.S. 63, 74 (1977); see also
Ingrassia v. Armontrout, 902 F.2d 1368, 1370 (8th Cir. 1990) (representations made during the
plea hearing “carry a strong degree of verity and pose a formidable barrier in any subsequent
collateral proceedings”).
5

Case 6:19-cv-03342-MDH Document 8 Filed 01/15/20 Page 5 of 8

Specifically, Movant stated that no coercion, threats, or promises had been made to induce
a guilty plea. Crim. Doc. 554. Additionally, as Respondent noted, this Court pointedly informed
Movant that dissatisfaction regarding his sentence would not be grounds to challenge it. Id.
Movant’s limited education did not negate his ability to understand the change of plea proceedings
and voluntarily plead guilty, as evidenced by Movant’s statement that he could read and write,
fluently, in both English and French. Id. Movant fails to provide evidence sufficient to overcome
the strong presumption that he knowingly and intelligently pleaded guilty, given the statements
made in Court.
Notwithstanding the above, Movant contends he pleaded guilty only after receiving a
promise from counsel that it would result in a lesser sentence. However, even if counsel made the
purported promise, its violation does not constitute a cognizable § 2255 claim. “Inaccurate advice
of counsel about the sentencing guidelines or likely punishment does not render involuntary a
defendant’s decision to plead guilty, so long as the defendant is informed of the maximum possible
sentence permitted by statute and the court’s ability to sentence within that range.” United States
v. Quiroga, 554 F.3d 1150,1155-56 (8th Cir. 2009). “[A] defendant who pleads guilty has no right
to be apprised of the sentencing options outside the statutory maximum and minimum sentences”
and “a defendant’s reliance on an attorney’s mistaken impression about the length of sentence is
insufficient to render a plea involuntary as long as the court informed the defendant of his
maximum possible sentence.” United States v. Granados, 168 F.3d 343, 345 (8th Cir. 1999) (per
curiam).
Movant acknowledged his maximum sentence potential by responding affirmatively to the
following question this Court stated: “The maximum penalty could actually be as much as life in
prison and supervised release for life. ... [A]re you aware that is the authorized potential
punishment for the crime ... committed?” Crim. Doc. 554, p. 9. Therefore, because Movant was
informed regarding his maximum sentence potential prior to his guilty plea, this claim is denied.
2. Defense Counsel Challenged the Guideline Enhancements
Movant argues insufficient evidence existed to support both two-level enhancements this
Court applied for maintaining a premise to distribute controlled substances and importing a
controlled substance as a criminal livelihood. Doc. 1, p. 22. Thus, Movant argues, counsel was
ineffective for failing to object to both. Id. However, the record indicates defense counsel clearly
did challenge the enhancements.
6

Case 6:19-cv-03342-MDH Document 8 Filed 01/15/20 Page 6 of 8

Defense counsel objected to both enhancements in the PSR addendum. Crim. Doc. 407.
Defense counsel challenged both enhancements in the sentencing memorandum. Crim. Doc. 503.
And lastly, defense counsel objected to both during the sentencing hearing. Crim. Doc. 555. In all
three instances, defense counsel advanced the same arguments Movant now bases his § 2255
motion upon. In all three instances, this Court overruled the objections. Crim. Doc. 555. Movant’s
dissatisfaction with this Court’s determination does not constitute a proper § 2255 claim.
Challenges to the Sentencing Guidelines are not cognizable in a § 2255 motion. Sun Bear
v. United States, 664 F.3d 700, 704 (8th Cir. 2011). Although § 2255 provides relief in cases in
which a sentence is in excess of the maximum term allowed by law, § 2255 is not available to
provide relief in cases which present “garden variety Sentencing Guidelines application issues.”
Auman v. United States, 61 F.3d 157, 161 (8th Cir. 1995).
Defense counsel acted effectively by challenging the relevant Guidelines enhancements.
Movant cannot again challenge this Court’s ruling on both via a § 2255 claim. Therefore, Movant’s
claim is denied.
3. Defense Counsel Filed a Timely Notice of Appeal
Lastly, Movant argues counsel was ineffective for failing to file an appeal. Again, however,
the record contradicts Movant’s claim. Defense counsel filed an Anders brief as well as a timely
notice of appeal. Crim. Doc. 519. The Eight Circuit determined Movant’s case contained no nonfrivolous issues for appeal. Crim. Doc. 615, p. 2.
“Generally, when counsel submits an Anders brief, the court independently reviews the
record for any nonfrivolous issues. If the court finds a nonfrivolous issue, it will direct counsel to
more fully brief the issue. United States v. Davis, 508 F.3d 461, 464 (8th Cir. 2007) (internal
citations omitted). In Anders, the Supreme Court instructed that it is “the duty of the court, and not
counsel, to review the record and ultimately decide whether the case is wholly frivolous.” Id.
(citing Anders v. State of Cal., 386 U.S. 738, 744 (1967)).
Therefore, defense counsel acted effectively by filing both a notice of appeal and an Anders
brief. The Eighth Circuit’s determination that no appealable issues existed does not constitute
deficient performance. Movant’s count three claim is denied. Accordingly, Movant’s claims of
ineffective assistance of counsel under Ground One are denied.

7
Case 6:19-cv-03342-MDH Document 8 Filed 01/15/20 Page 7 of 8

B. Ground Two: Prosecutorial Misconduct
Movant claims prosecutorial misconduct occurred, constituting a basis for Ground Two.
However, Movant’s motion contains no details or other factual allegations in support of this claim.
“The subsequent presentation of conclusory allegations unsupported by specifics is subject to
summary dismissal, as are contentions that in the facts of the record are wholly incredible.”
Blackledge, 431 U.S. at 74 (citing Machibroda v. United States, 368 U.S. 487, 495-96 (1962)).
Therefore, because Movant has failed to provide specifics, his conclusory allegation of
prosecutorial misconduct under Ground Two is denied.
IV.

Certificate of Appealability
Because the Court finds Movant has failed to demonstrate a reasonable basis for his claims

that his counsel was ineffective in his representation of Movant and prosecutorial misconduct
occurred, Movant’s motion to vacate his sentence is denied. Additionally, since the motions, files,
and records conclusively show Movant is not entitled to relief, Movant’s request for an evidentiary
hearing is denied. See Roundtree v. United States, 751 F.3d 923, 925 (8th Cir. 2014) (“A Section
2255 movant is entitled to an evidentiary hearing . . . unless the motion, files, and record
conclusively show he is not entitled to relief.”).
Pursuant to Rule 11 of the Rules Governing Section 2255 Proceedings, the Court must
issue or deny a certificate of appealability when it enters a final order adverse to Movant. A
certificate of appealability may be issued “only if [Movant] has made a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). Because Movant has made no such
showing, the Court declines to issue a certificate of appealability.
V.

Conclusion
Accordingly, for the reasons explained above, Movant’s motion to vacate, set aside, or

correct sentence pursuant to 28 U.S.C. § 2255 is DENIED and a Certificate of Appealability is
DENIED. This action is dismissed.
IT IS SO ORDERED.
/s/ Douglas Harpool________
DOUGLAS HARPOOL, JUDGE
UNITED STATES DISTRICT COURT
Dated: January 15.2020

8
Case 6:19-cv-03342-MDH Document 8 Filed 01/15/20 Page 8 of 8

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MISSOURI
SOUTHERN DIVISION
JUDGMENT IN A CIVIL CASE
PATRICK ROGER BRIGAUDIN,
Movant,
Case No. 19-03342-CV-S-MDH-P

v.

!

UNITED STATES OF AMERICA,
Respondent.

O

JURY VERDICT. This action came before the Court for a trial by jury. The issues have
been tried and the jury has rendered its verdict.

x

DECISION OF THE COURT.
IT IS ORDERED AND ADJUDGED: Movant’s motion to vacate, set aside, or correct
sentence pursuant to 28 U.S.C. § 2255 is DENIED and a Certificate of Appealability is
DENIED. This action is dismissed.

Entered on: January 15. 2020
PAIGE WYMORE-WYNN
CLERK OF COURT

/s/ K. Willis
(By) Deputy Clerk

Case 6:19-cv-03342-MDH Document 9 Filed 01/15/20 Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1275
Patrick Roger Brigaudin
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the Western District of Missouri - Springfield
(6:19-cv-03342-MDH)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
August 21, 2020

Order Entered at the Direction of the Court: *
Clerk, U.S. Court of Appeals, Eighth Circuit*
/s/ Michael E. Gans

